                                     r

                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL                 ,
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A051 10079                                                                      Page 1 of 1



         We investigated an allegation fi-om a complainant1that she was listed on an NSF SBIR proposal2
         as Principal Investigator (PI) but that she did not give permission for her name to be used as the
         PI in the proposal, nor did she intend to serve as PI for the proposed project. In addition, the
         complainant alleged that another consultant3listed on the award, did not know about the
         proposal, did not intend to participate in the proposed work, and did not provide the letter of
         support that was in the file.

         We interviewed the NSF program officers4who received the initial allegations and reviewed the
         information that they had received from the complainant. According to complainant, she had
         agreed to serve as a consultant on the project and had voluntarily provided her CV to another
         collaborator5on that project for that purpose. According to the C E O ~of the company that
         submitted the proposal, the complainant had previously agreed to serve as PI on the project.

         We interviewed the consultant identified by complainant as another individual listed on the
         proposal without h s approval or knowledge. The consultant informed us that he had agreed to
         consult on the project, that he was actively engaged in a collaboration with the SBIR company
         that submitted the proposal, and that he had drafted the letter in support of that collaboration.

         We concluded that complainant's allegations were not supported by a preponderance of the
         evidence. Therefore, no further OIG action is warranted.

         Accordingly, this case is closed.




         I
             Redacted
             Redacted
             Redacted
             Redacted
             Redacted
             Redacted



                                                                                                              L

NSF OIG Fonn 2 (11/02)
